         Office of Inspector General




August 8, 2005

EDUARDO H. RUIZ
DISTRICT MANAGER, SANTA ANA DISTRICT

SUBJECT: Audit Report – City Letter Carrier Operations –
         Santa Ana District (Report Number DR-AR-05-013)

This report presents the results of our self-initiated audit of City Letter Carrier
Operations in the Santa Ana District (Project Number 05YG005DR001). This is the
first in a series of six reports on city letter carrier operations issued under the Value
Proposition Agreement between the vice president, Delivery and Retail, and the Office
of Inspector General’s (OIG) Delivery and Retail directorate. The overall objective was
to assess the management of city letter carrier operations.

Opportunities exist to improve the management of city letter carrier operations in the
district. Specifically:

   •   Delivery facility supervisors and managers did not adequately match
       workhours with workload when approving Postal Service Forms 3996, Carrier –
       Auxiliary Control. We projected the sample results for a total of
       83,864 unjustified hours over the five-month period May 1 through
       September 30, 2004. We agreed with headquarters and Pacific Area delivery
       management to unrecoverable costs of $2,127,852 and we will report it as such
       in our Semiannual Report to Congress.

   •   Delivery facility supervisors and managers did not always timely view the
       Delivery Operations Information System (DOIS) Reports to manage daily
       operations.

   •   Delivery facility supervisors and managers did not effectively use the Managed
       Service Points (MSP) base information to monitor carrier performance.

   •   Delivery facility supervisors and managers did not always properly document
       letter carriers’ unauthorized overtime occurrences and take appropriate
       corrective action.

We recommended the manager, Santa Ana District, direct delivery facility supervisors
and managers to enforce the policy for carriers to properly complete required forms and
instruct supervisors to only authorize time carriers request. In addition, we
recommended the manager require supervisors and managers to use DOIS Reports in
a timely manner to manage daily operations. We also recommended the manager
require supervisors and managers to use MSP more effectively, consistently document
unauthorized overtime on required forms, and take appropriate corrective action.

Management agreed with our findings and recommendations and has initiatives
completed and planned addressing the issues in this report. Management’s comments
and our evaluation of these are included in this report.

The OIG considers recommendations 1 and 2 significant and requires OIG concurrence
before closure. The OIG considers the support provided by management detailing
corrective actions to be sufficient to close the recommendations.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information please contact Rita Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Ellis A. Burgoyne
    Michael S. Furey
    Alfred Iniguez
    Steven R. Phelps
City Letter Carrier Operations –                                         DR-AR-05-013
 Santa Ana District


                                   TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                     1

     Background                                                                   1
     Objectives, Scope, and Methodology                                           4
     Prior Audit Coverage                                                         5

 Part II

 Audit Results                                                                    7

      Workhours to Workload Not Adequately Matched                                7
         Unjustified Time                                                         8
         PS Form 3996, Carrier – Auxilliary Control                               9
         Supervisors Authorized Additional Time                                   9
      Recommendations                                                            10
      Management’s Comments                                                      10
      Evaluation of Management’s Comments                                        11

      Supervisors Did Not Always Timely View DOIS Reports                        12
      Recommendations                                                            13
      Management’s Comments                                                      13
      Evaluation of Management’s Comments                                        13

      Managed Service Points Base Information                                    14
      Recommendations                                                            15
      Management’s Comments                                                      15
      Evaluation of Management’s Comments                                        15

      Unauthorized Time                                                          16
      Recommendation                                                             16
      Management’s Comments                                                      16
      Evaluation of Management’s Comments                                        17

 Appendix A. Summary of 119 “3996 Audits”                                        18

 Appendix B. Projection of “3996 Audit” Results Over Five-Month Period           22

 Appendix C. Technical Documentation                                             23
City Letter Carrier Operations –                      DR-AR-05-013
 Santa Ana District



 Appendix D. OIG Calculation of Unrecoverable Costs           24

 Appendix E. Management’s Comments                            25
City Letter Carrier Operations –                                                                DR-AR-05-013
 Santa Ana District


                                     EXECUTIVE SUMMARY
    Introduction                   This report presents the results of our self-initiated audit of
                                   city letter carrier operations in the Santa Ana District. The
                                   overall objective was to assess the management of city
                                   letter carrier operations.

    Results in Brief               Opportunities exist to improve the management of city letter
                                   carrier operations in the Santa Ana District. Specifically:

                                      •   Delivery facility supervisors and managers did not
                                          effectively match workhours with workload. This
                                          occurred primarily because carriers did not always
                                          submit a Postal Service (PS) Form 3996, Carrier –
                                          Auxiliary Control, to document their requests for
                                          additional time. As a result, we projected the
                                          six delivery facilities had 13,599 unjustified hours that
                                          were not supported by volume or workload from
                                          May 1 through September 30, 2004. We projected
                                          the sample results to all 37 similarly sized delivery
                                          facilities in the district for a total of 83,864 unjustified
                                          hours. We agreed to unrecoverable costs of
                                          50 percent1 of the total variance in the Web Enabled
                                          Enterprise Information System, which amounts to
                                          $2,127,852.

                                      •   Supervisors and managers did not always timely
                                          view Delivery Operations Information System (DOIS)
                                          Reports such as the Workload Status, Route/Carrier
                                          Daily Performance, and Managed Service Points
                                          (MSP) Overview Reports to manage daily operations
                                          effectively. This occurred because supervisors felt
                                          rushed in the morning so relied on their management
                                          experience.

                                      •   Supervisors and managers did not consistently use
                                          the MSP base information to monitor carrier
                                          performance effectively. This occurred because they
                                          were not using PS Form 3999, Inspection of Letter
                                          Carrier Route, or another current form to update the
                                          route pivot plan.

1
 Postal Service Headquarters and Pacific Area Delivery management stated that more than 50 percent of the
variance would be too high because managers cannot capture that much in a reasonable amount of time. However,
Postal Service officials thought 50 percent of the variance was a reasonable figure.




                                                      i
City Letter Carrier Operations –                                                      DR-AR-05-013
 Santa Ana District


                                      •   Supervisors and managers did not always properly
                                          document letter carriers’ unauthorized overtime and
                                          take corrective action to assist in managing overtime
                                          issues. Supervisors said documenting unauthorized
                                          overtime was a lower priority.

 Summary of                        We recommended the manager, Santa Ana District, direct
 Recommendations                   delivery facility supervisors and managers to enforce the
                                   policy for carriers to submit a PS Form 3996 when workload
                                   or volume indicates the carrier will need additional time for
                                   the route and require them to properly document the
                                   reasons for the requests. The manager should also instruct
                                   the supervisors to only authorize time that carriers request
                                   and keep route base information readily available. In
                                   addition, the manager should direct supervisors and
                                   managers to use DOIS Reports timely to manage daily
                                   delivery operations and review MSP base information to
                                   monitor carrier performance.

                                   Finally, the manager, Santa Ana District, should require
                                   supervisors and managers to consistently document
                                   unauthorized overtime on required forms and take
                                   appropriate corrective action.

 Summary of                        Management agreed with our findings and
 Management’s                      recommendations. Management detailed the actions
 Comments                          already taken such as providing critical hour training,
                                   implementing a PS Form 3996 Web site, and conducting
                                   Pacific Area effectiveness reviews. Also, management
                                   conducted additional training in MSP and unauthorized
                                   overtime procedures. Management’s comments, in their
                                   entirety, are included in Appendix E of this report.

 Overall Evaluation of             Management’s actions taken or planned are responsive to
 Management’s                      our findings and recommendations and should correct the
 Comments                          issues identified in our findings.




                                                    ii
City Letter Carrier Operations –                                                                    DR-AR-05-013
 Santa Ana District


                                                 INTRODUCTION
    Background                     The Postal Service delivered over 200 billion pieces of mail
                                   to more than 143 million addresses in fiscal year (FY) 2004
                                   and expects to deliver to an additional 1.6 million addresses
                                   in FY 2005. The Delivery Operations Information System
                                   (DOIS), deployed in FY 2002, provides operational data to
                                   the delivery facility supervisors and managers to assist them
                                   in managing daily carrier operations and reducing costs.
                                   This data includes mail volume, mail arrival and dispatch
                                   times, and projected office and street hours for routes.

                                   As shown in Figure 1, delivery operations constitute
                                   45 percent of the workhours in the FY 2005 field operating
                                   budget, which is mainly attributable to office and street
                                   workhours. Salary and benefits for rural and city carriers
                                   totaled approximately $21 billion. Also, in the FY 2005 field
                                   budget, the Postal Service established a goal to reduce
                                   delivery workhours by 6.2 million. City delivery hours are
                                   budgeted as 73 percent of total delivery workhours.2

                                    Figure 1. FY 2005 Field Budget Workhours


                                                                       45%




                                                                                             8%




                                                           23%
                                                                                       16%

                                                                        3%   5%

                                              Support, Controller, Disability and Consolidated Function
                                              Mail Processing
                                              Delivery
                                              Vehicle Service and Plant Maintenance
                                              Customer Service
                                              Field Administration



2
 Total delivery workhours for FY 2005 were budgeted at 631,731,535. Of the total delivery workhours, 458,064,595 (or
73 percent) were charged to the city delivery function code (2B).




                                                              1
City Letter Carrier Operations –                                                                             DR-AR-05-013
 Santa Ana District


                                      The Pacific Area consists of 753 delivery facilities3 in
                                      ten districts. The Pacific Area’s FY 2005 budget
                                      performance goal is to reduce city delivery workhours by
                                      721,889, representing cost savings of $25,413,240. The
                                      Santa Ana District–with 100 delivery facilities–is the largest
                                      district in the Pacific Area.

                                      Each delivery facility’s mail volume, mail arrival and
                                      dispatch times, and office and street hours vary and are
                                      managed by the delivery facility supervisor or manager. In
                                      addition, routes in a city delivery facility have an established
                                      office and street time (usually eight hours) based on the last
                                      route inspection. One aspect of daily delivery facility
                                      operations is preparation and submission of Postal Service
                                      (PS) Form 3996, Carrier – Auxiliary Control, by city letter
                                      carriers requesting overtime or assistance on their routes.
                                      The supervisor reviews each request and either approves
                                      the additional time, decreases the time, or denies the
                                      carrier’s request. The supervisor bases this decision on the
                                      daily workload or mail volume received in the delivery
                                      facility.

                                      Unauthorized time is time worked that is not authorized by
                                      the supervisor/manager. For example, when a carrier
                                      requests 1 hour of additional time, but uses 1 hour and
                                      30 minutes, the extra 30 minutes is unauthorized time.
                                      Unjustified time occurs when the workload or volume does
                                      not support the hours used. Using the above example, if
                                      the carrier worked 1 hour and 30 minutes of extra time, but
                                      the workload only supported 30 minutes, the extra 1 hour
                                      would be classified as unjustified time. A carrier can have
                                      both unauthorized and unjustified time, simultaneously.

                                      To determine the amount of unauthorized and unjustified
                                      overtime on routes, a “3996 audit” of a delivery facility’s
                                      activities can be performed. Using the DOIS Workload
                                      Status Report,4 PS Form 3996,5 Route/Carrier Daily



3
  A delivery facility is a building with one or more delivery units. A delivery unit is a group of routes that usually belong to a ZIP
Code. However, some ZIP Codes with a few routes can be combined to form one delivery unit and a ZIP Code with a large
number of routes may be split into more than one delivery unit.
4
  Workload Status Reports provide management with data such as volume, parcel, and delivery point sequenced mail to make
effective decisions in matching workhours to workload.
5
  Carriers complete a PS Form 3996 to request overtime or auxiliary assistance on their route for a day when they estimate the
route will exceed eight hours because of workload and volume.




                                                                   2
City Letter Carrier Operations –                                                                          DR-AR-05-013
 Santa Ana District



                                     Performance Report,6 and Carrier Control Workload Sheet,7
                                     several factors are reviewed:

                                              •    The amount of time the carrier requests for the
                                                   route.

                                              •    The amount of time the supervisor approves for
                                                   the route.

                                              •    The total time the carrier uses on the route.

                                              •    The justified and unjustified time.

                                     In addition to reviewing PS Forms 3996, an analysis of the
                                     completed PS Forms 1017-B, Unauthorized Overtime
                                     Record, can be conducted to determine if supervisors are
                                     correcting carrier performance issues.

                                     Managed Service Points (MSP) is a computerized tool
                                     designed to monitor consistency of delivery time and
                                     enhance street management using mobile data collection
                                     devices. Letter carriers scan barcodes placed at service
                                     points reflecting key elements of the employee workday.
                                     Seven basic scan points are required:

                                              1.   Hot Case8
                                              2.   Depart to Route
                                              3.   First Delivery
                                              4.   Last Delivery Before Lunch
                                              5.   First Delivery After Lunch
                                              6.   Last Delivery
                                              7.   Return to Office

                                     At the conclusion of each workday, the carrier downloads
                                     the MSP data collected into DOIS. Management compares
                                     this data to the MSP base information employees store in
                                     DOIS to generate reports supervisors can use to better
                                     understand the carrier’s performance.


6
  The Route/Carrier Daily Performance Report assists supervisors in evaluating the performances of all routes within a delivery
unit for a single day.
7
  The Carrier Workload Control Sheet contains the base statistics for a route such as volume, deliveries, street factor, and
accountables as determined by the last route inspection.
8
  A hot case is a location within the delivery facility where employees resort mail missent from the processing plant and give it to
the assigned carrier.




                                                                  3
City Letter Carrier Operations –                                                       DR-AR-05-013
 Santa Ana District




 Objectives, Scope,                Our overall objective was to assess the management of city
 and Methodology                   letter carrier operations. Specifically, we determined
                                   whether delivery supervisors and managers adequately
                                   matched workhours with workload, used DOIS Reports in a
                                   timely manner to manage operations, and effectively used
                                   MSP base information to monitor carrier performance.

                                   Additionally, we assessed whether delivery facility
                                   supervisors/managers properly tracked unauthorized time
                                   by documenting a letter carrier’s unauthorized time and
                                   taking corrective action. Our audit scope reviewed city letter
                                   carrier operations for the five-month period May 1 through
                                   September 30, 2004.

                                   To accomplish our objectives, we randomly selected
                                   six delivery xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxx. To determine whether
                                   delivery facility supervisors/managers adequately matched
                                   workhours with workload, we randomly selected 20 days at
                                   each delivery facility and conducted “3996 audits” for each
                                   day to quantify the amount of unjustified time. We also
                                   observed the delivery facility supervisors’ and station
                                   managers’ morning activities of measuring and recording
                                   mail volume, reviewing Workload Status Reports, and
                                   approving overtime.

                                   To determine whether delivery facility supervisors and
                                   managers effectively used DOIS Reports in a timely
                                   manner, we analyzed the time each day that supervisors
                                   reviewed data from the Workload Status, Route/Carrier
                                   Daily Performance, and MSP Overview Reports.
                                   Additionally, we reviewed the base MSP information for all
                                   routes at the six delivery facilities and reviewed the use of
                                   the log for PS Forms 1017-B.

                                   This audit was conducted from December 2004 through
                                   August 2005, in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We relied on data obtained from the Web
                                   Enabled Enterprise Information System (WebEIS) and
                                   DOIS. We did not directly audit these systems, but




                                                        4
City Letter Carrier Operations –                                                       DR-AR-05-013
 Santa Ana District


                                   performed a limited data integrity review to support our data
                                   reliance. We discussed our observations and conclusions
                                   with appropriate management officials and included their
                                   comments where appropriate.

 Prior Audit Coverage              The Office of Inspector General (OIG) has issued
                                   three audits related to our objectives.

                                   City Letter Carrier Operations – Rio Grande District (Report
                                   Number DR-AR-05-009, December 2, 2004). The report
                                   outlined opportunities to improve the management of city
                                   letter carrier operations in the Rio Grande District. Delivery
                                   facility supervisors and managers did not adequately match
                                   workhours with workload. We projected the three delivery
                                   facilities had 5,318 unjustified hours (at an estimated cost of
                                   $193,947) not supported by volume or workload over the
                                   five-month period October 1, 2003, through February 29,
                                   2004. We reported 2,543 of the unjustified hours–or
                                   $92,762–as unrecoverable costs. We also noted that
                                   supervisors/managers did not effectively use DOIS to
                                   manage daily operations and delivery unit supervisors and
                                   managers did not consistently perform street management
                                   or effectively use MSP to monitor city letter carriers’ street
                                   time to correct negative trends.

                                   City Letter Carrier Office Preparation in the Dallas District
                                   (Report Number DR-AR-04-005, July 26, 2004). The report
                                   stated that opportunities exist to improve the Dallas
                                   District’s city letter carrier office preparation operations.
                                   Specifically, impediments existed that adversely impacted
                                   delivery supervisors’/managers’ ability to adequately match
                                   workhours with workload. In addition, city letter carriers’
                                   work activities did not always ensure they departed the
                                   delivery facility as scheduled and supervisors/managers did
                                   not use the DOIS to assist in managing office activities.

                                   City Carrier Productivity – Letter Carrier Delays in the
                                   Baltimore District (Report Number TD-AR-03-011, July 28,
                                   2003). The report stated that early reporting wasted
                                   carriers’ morning time and exposed the Baltimore District to
                                   potential unnecessary evening overtime costs. It was noted
                                   supervisors/managers were not using DOIS to manage




                                                        5
City Letter Carrier Operations –                                                     DR-AR-05-013
 Santa Ana District



                                   carrier schedules and, consequently, could not use the
                                   system to evaluate carrier scheduling or take corrective
                                   action.




                                                        6
City Letter Carrier Operations –                                                         DR-AR-05-013
 Santa Ana District


                                               AUDIT RESULTS

 City Letter Carrier               Opportunities exist to improve the management of city letter
 Operations                        carrier operations in the Santa Ana District. Specifically:

                                      •   Delivery facility supervisors and managers did not
                                          effectively match workhours with workload. As a
                                          result, we projected the six delivery facilities had
                                          13,599 unjustified hours that were not supported
                                          by volume or workload from May 1 through
                                          September 30, 2004. We projected the sample
                                          results to all 37 similarly sized delivery facilities in
                                          the district for a total of 83,864 unjustified hours.
                                          Headquarters and Pacific Area delivery management
                                          and the OIG agreed to unrecoverable costs of
                                          50 percent of the total variance in WebEIS, which
                                          amounts to $2,127,852. (See Appendix D.)

                                      •   Supervisors and managers did not always timely use
                                          DOIS Reports such as Workload Status, Route/
                                          Carrier Daily Performance, and MSP Overview
                                          Reports to manage daily operations effectively.

                                      •   Supervisors and managers did not consistently use
                                          the MSP base information to effectively monitor
                                          carrier performance.

                                      •   Supervisors and managers did not always properly
                                          document letter carriers’ unauthorized overtime
                                          occurrences and take appropriate corrective action.

 Workhours to                      Delivery facility supervisors and managers did not
 Workload Not                      adequately match workhours with workload. We projected
 Adequately Matched                the sample results in the 37 similarly sized delivery facilities
                                   in the district for a total of 83,864 unjustified hours with
                                   unrecoverable costs of $2,127,852 over the five-month
                                   period May 1 through September 30, 2004. The unjustified
                                   hours occurred primarily because carriers did not always
                                   submit a PS Form 3996 to document their requests for
                                   additional time. In addition, carriers did not properly
                                   complete PS Forms 3996 and supervisors authorized time
                                   carriers did not request and/or did not take action on PS
                                   Forms 3996. Delivery facility supervisors also did not keep
                                   route base information readily available.




                                                         7
City Letter Carrier Operations –                                                                         DR-AR-05-013
 Santa Ana District


                                    Postal Service Handbook M-41, City Delivery Carrier Duties
                                    and Responsibilities, Section 131.41 (updated with Postal
                                    Bulletin revisions through April 2001), states that it is the
                                    carrier’s responsibility to complete items on PS Form 3996 if
                                    overtime or auxiliary assistance is authorized for the office or
                                    the street.

                                    Management Instruction PO-610-2000-1, Piece Count
                                    Recording System, dated December 2000, states that
                                    effective day-to-day management of a delivery facility
                                    requires evaluation of the facility’s daily mail volume. The
                                    Postal Service uses volume data daily to assess the
                                    workhours needed for any given day.

    Unjustified Time                We analyzed delivery facility information9 and conducted
                                    “3996 audits” for 11910 days at six randomly sampled
                                    delivery facilities from May 1 through September 30, 2004.
                                    The “3996 audits” identified 2,127 unjustified hours (or
                                    97 percent) of the total 2,204 hours that were expended on
                                    routes with time used over 8 hours. We projected the
                                    sample results to all 37 similarly sized delivery facilities in
                                    the district for a total of 83,864.41 unjustified hours at a
                                    projected cost of over $3 million.11

                                    The “3996 audit” process assesses individual route time
                                    used over eight hours. The audit process cannot
                                    differentiate between time that is truly unjustified and time
                                    that is simply not supported by documentation. The Total
                                    Variance Factor in the Postal Service’s WebEIS shows the
                                    difference between projected workhours for the workload
                                    identified in DOIS and the actual workhours used by the
                                    carriers. Pacific Area delivery management and the OIG
                                    agreed to 50 percent of the WebEIS variance from May 1
                                    through September 30, 2004, as unrecoverable costs, which
                                    amounts to $2,127,852.12




9
 DOIS Workload Status Reports, PS Forms 3996, and Route/Carrier Daily Performance Reports.
10
   We randomly selected 20 days at each of the 6 facilities to conduct “3996 audits,” but 1 day selected at xxxxxx was a
California state holiday for Ronald Reagan’s funeral, so 119 “3996 audits” were completed.
11
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter carriers in
FY 2004 was $36.47. The 83,864.41 hours multiplied by $36.47 equals $3,058,535.
12
   The WebEIS shows the total variance between projected workhours for the workload identified in DOIS and the actual
workhours used by the carriers. The total variance for the 37 similarly sized delivery facilities is $4,255,704 for May 1 through
September 30, 2004.




                                                                 8
City Letter Carrier Operations –                                                                               DR-AR-05-013
 Santa Ana District



 PS Form 3996,                        Carriers did not always submit PS Forms 3996 to request
 Carrier – Auxiliary                  additional time on routes. Of the days we reviewed, 1,641 of
 Control                              the 2,204 total unjustified hours (or 74 percent) were the
                                      result of carriers not submitting the form. This occurred
                                      because delivery facility management did not emphasize to
                                      carriers the importance of using the form. Further,
                                      supervisors often verbally approved overtime with carriers.

                                      When carriers submitted PS Forms 3996, they did not
                                      always properly document their request for additional time.
                                      For example, carriers requested time with no reasons listed
                                      or listed reasons with no corresponding amount of time.

                                      Postal Service Handbook M-41, City Delivery Carrier Duties
                                      and Responsibilities, Chapter 2, Section 28 (updated with
                                      Postal Bulletin revisions through April 2001), states that the
                                      carrier must show the reason for requesting assistance on
                                      his/her route in detail on PS Form 3996.

 Supervisors Authorized Supervisors authorized time that was not requested by the
 Additional Time        carrier on PS Form 3996. For example, a carrier listed “a lot
                        of mail” as a factor with no time requested and the
                        supervisor authorized two hours of overtime. In addition,
                        supervisors did not always properly approve or disapprove
                        submitted PS Forms 3996. This occurred because delivery
                        facility management did not establish expectations that
                        directed delivery supervisors to approve only time requested
                        by the carrier and justified by the workload.

                                      The sampled delivery facilities did not keep route information
                                      readily available for parcels, accountables,13 and full
                                      coverage times.14 This data is critical because the volume
                                      for these items may increase or decrease each day on
                                      carriers’ routes. Without this information, supervisors do not
                                      have objective data to approve overtime requests. We also
                                      noted that carriers combined their requests for multiple
                                      factors instead of separating each factor with the specific
                                      amount of additional time needed on PS Form 3996.
                                      Therefore, it was not obvious how much time the carrier
                                      requested for volume, meeting time, and full coverage.
                                      Supervisors also approved time with combined factors and
13
   Accountable mailpieces include Express Mail and certified mail packages the carrier must deliver and usually require the
customer’s signature.
14
   Full coverage is the additional time granted to a city letter carrier to deliver mail on a particular day to all possible delivery
points on a route.




                                                                     9
City Letter Carrier Operations –                                                        DR-AR-05-013
 Santa Ana District


                                   did not make any notes about how much they approved for
                                   each factor. This also made it difficult to objectively justify
                                   time.

                                   The delivery facilities incurred unjustified workhours as a
                                   result of carriers not submitting PS Forms 3996 or
                                   submitting incomplete documentation and
                                   supervisors/managers approving time that was not justified
                                   by the workload.

                                   We noted significant improvement in the submission of
                                   PS Forms 3996 by carriers after our audit scope period.
                                   We judgmentally sampled 11 days in November and
                                   December 2004, and found delivery facility supervisors were
                                   directing carriers to complete PS Forms 3996 when
                                   requesting additional time on a route.

 Recommendations                   We recommend the manager, Santa Ana District:

                                      1.   Direct station managers and supervisors to enforce
                                           the policy for carriers to complete a Postal Service
                                           Form 3996, Carrier – Auxiliary Control, when
                                           workload or volume indicates the carrier will need
                                           additional time for the route and require carriers to
                                           properly document reasons for their request of
                                           additional time.

                                      2.   Instruct station managers and delivery facility
                                           supervisors to only authorize time requested by
                                           carriers and justified by the workload.

                                      3.   Require station managers and delivery facility
                                           supervisors to keep route base information readily
                                           available that shows base parcels, accountables,
                                           and full coverage times.

 Management’s                      Management agreed with our findings, unrecoverable costs,
 Comments                          and recommendations 1, 2, and 3 and has taken actions to
                                   ensure compliance. Management conducted “Critical Hour”
                                   management training for customer service supervisors
                                   during April and May 2005. This training included proper
                                   scheduling of employees and proper completion and
                                   authorization of PS Forms 3996. In addition, management
                                   implemented a Web site to monitor both the quantity and
                                   quality of PS Forms 3996.



                                                         10
City Letter Carrier Operations –                                                 DR-AR-05-013
 Santa Ana District




 Evaluation of                     Management’s comments are responsive to our findings and
 Management’s                      recommendations 1, 2, and 3. Management’s actions taken
 Comments                          should correct the issues identified in the finding.




                                                      11
City Letter Carrier Operations –                                                           DR-AR-05-013
 Santa Ana District




 Supervisors Did Not                    Supervisors and managers did not timely view DOIS
 AlwaysTimely View                      operational reports to assist in managing delivery
 DOIS Reports                           operations. This occurred because supervisors felt rushed
                                        in the morning and relied on their delivery experience.
                                        Although supervisors received DOIS training, they did not
                                        always consider viewing DOIS Reports to be a priority.
                                        According to the Delivery Operations Information System
                                        Quality Assessment, September 9, 2002, it is critical that
                                        supervisors use DOIS to manage daily facility operations.

                                        Supervisors and managers did not always review the
                                        Workload Status, Route/Carrier Daily Performance, and
                                        MSP Overview Reports at the appropriate time. As
                                        illustrated in Table 1, supervisors were not using the
                                        operational delivery data available to manage their delivery
                                        facilities.


                                                     Table 1. Supervisors’ DOIS Activity
                                                     May 1 Through September 30, 2004
                                                               (127 workdays)

                                                                              Days
                                                             Days        Route/Carrier       Days
                                               Six        Workload            Daily          MSP
                                            Randomly        Status        Performance      Overview
                                            Sampled      Report NOT       Report NOT        Report
                                             Delivery      Viewed        Viewed Before       NOT
                                            Facilities   Before 8 a.m.       8 a.m.         Viewed
                                          xxxxxxxxxxxx              76               81           77
                                          xxxxxxxxxxxx              23              102           22
                                          xxxxxxxxxxxx              46               23           68
                                          xxxxxxxxxxxx              50               83           21
                                          xxxxxxxxxxxx              73               27         124
                                          xxxxxxxxxxxx              23               30           26
                                                 TOTAL             291              346         338

                                        The Workload Status Report was viewed after 8:00 a.m. in
                                        291 of 76215 instances (38 percent) and the Route/Carrier
                                        Daily Performance Report was viewed after 8:00 a.m. in
                                        346 of 762 instances (45 percent). The MSP Overview
                                        Report was not viewed in 338 of 762 instances (44 percent).
                                        This occurred because supervisors felt rushed in the
                                        morning and relied more on their delivery experience.
15
     127 workdays x 6 delivery facilities = 762.




                                                            12
City Letter Carrier Operations –                                                       DR-AR-05-013
 Santa Ana District



                                   Delivery Operations Information System Quality
                                   Assessment, September 2002, and Pacific Area AM
                                   Standard Operating Procedures (AM SOP), October 29,
                                   2004, states it is critical that supervisors use DOIS to
                                   manage daily facility operations and review reports timely.

                                   As a result, supervisors impact their ability to make effective
                                   decisions in matching workhours to workload by not
                                   reviewing operational and critical data such as mail volume,
                                   carrier performance, and street delivery activities in DOIS.
                                   In addition, by not reviewing the data, supervisors may not
                                   take timely corrective action to address carrier performance
                                   issues.

                                   The AM SOP procedures are currently being instituted in all
                                   delivery facilities with a reemphasis on the use of DOIS
                                   Reports. We reviewed the use of DOIS Reports again after
                                   our audit scope period and found the delivery facilities were
                                   improving their timely reviewing of operational data.

 Recommendations                   We recommend the manager, Santa Ana District:

                                      4.   Direct station managers and supervisors to
                                           review Workload Status and Route/Carrier Daily
                                           Performance Reports by 8:00 a.m. so that workload
                                           can be accurately matched to workhours.

                                      5.   Direct station managers and supervisors to comply
                                           with the Pacific Area’s AM Standard Operating
                                           Procedures, which require daily review of the
                                           Managed Service Points Overview Report.

 Management’s                      Management agreed with the finding and recommendations
 Comments                          4 and 5 and has taken actions to ensure compliance.
                                   Management conducted critical hour training to ensure all
                                   supervisors were retrained in pulling, reviewing, and
                                   analyzing DOIS reports.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations 4 and 5. Management’s actions taken
 Comments                          should correct the issues identified in the finding.




                                                        13
City Letter Carrier Operations –                                                                        DR-AR-05-013
 Santa Ana District




 Managed Service                    Delivery facility managers did not consistently use MSP
 Points Base                        base information in DOIS to effectively monitor carrier street
 Information                        performance. We reviewed the base MSP information for
                                    all routes at the six randomly sampled delivery facilities and
                                    identified 66 routes where office and street times were out
                                    of sequence.16

                                    Examples of out-of-sequence conditions included:

                                        •    Return to office time before the last delivery.

                                        •    Delivery times defaulted to 12:00 a.m.

                                        •    Different streets with the same scan time.

                                    The out-of-sequence times were the result of supervisors
                                    not having a current PS Form 3999, Inspection of Letter
                                    Carrier Route,17 or not using a current form to update the
                                    route pivot plan. The route pivot plan is a detailed
                                    description of the route that the city delivery carrier should
                                    follow while delivering mail on the street. However, even
                                    with a current PS Form 3999, the manager or supervisor
                                    must update the form and the pivot plan to reflect any
                                    changes to the route.

                                    Also, the delivery supervisors we spoke with said they had
                                    not received any MSP training. District officials said they
                                    had conducted MSP training for most staff during the last
                                    two years. In addition, as part of the new AM SOP
                                    procedures, delivery facility management stated that they
                                    were beginning to train supervisors to update PS Forms
                                    3999.

                                    The Santa Ana District MSP policy requires supervisors to
                                    view the MSP Overview Report daily to help identify
                                    variance issues. Supervisors and managers who did not
                                    review this report daily (as illustrated in Table 1) were
                                    unable to determine variances between the actual and
                                    scheduled times of MSP scan points that could identify
                                    carrier performance issues or identify inaccurate MSP base
                                    information.
16
 Out-of-sequence occurs when the scheduled times for the route do not occur in chronological order.
17
 PS Form 3999 records all pertinent information concerning a carrier’s office and street performance, including line of travel
details, listing office leave time, first delivery time, lunch time, and last delivery time.




                                                                14
City Letter Carrier Operations –                                                      DR-AR-05-013
 Santa Ana District




 Recommendations                   We recommend the manager, Santa Ana District:

                                      6.   Require employees to update base information
                                           when any changes are made to a route.

                                      7.   Provide additional training to station supervisors
                                           and managers in using Managed Service Points
                                           more effectively.

 Management’s                      Management agreed with the finding and recommendations
 Comments                          6 and 7 and has implemented or will be implementing
                                   actions to ensure compliance with MSP. Management
                                   conducted additional MSP training in late April through early
                                   May 2005 and an intensified MSP training class is
                                   scheduled for August 2005. In addition, management has
                                   developed a new street management plan with tentative
                                   implementation in August 2005.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations 6 and 7. Management’s action taken or
 Comments                          planned should correct the issues identified in the finding.




                                                       15
City Letter Carrier Operations –                                                      DR-AR-05-013
 Santa Ana District




 Unauthorized Time                 Supervisors/managers did not always properly document
                                   letter carriers’ unauthorized overtime occurrences. There
                                   were only two entries where a PS Form 1017-B was
                                   recorded for any of the 119 sampled days for the five-month
                                   period May 1 through September 30, 2004. Three of the
                                   randomly sampled delivery facilities had no PS Form 1017-
                                   B log entries for the entire five-month period and the three
                                   other delivery facilities had a total of only 18 entries.
                                   Supervisors said completing PS Forms 1017-B was a low
                                   priority and they informally discussed unauthorized overtime
                                   occurrences with carriers.

                                   The supervisor should have documented the discussion
                                   with the carrier regarding the reasons for unauthorized
                                   overtime after returning from the route in the remarks
                                   section of PS Form 1017-B.

                                   Handbook F-401, Supervisor’s Guide to Scheduling and
                                   Premium Pay, Chapter 5, Section F, August 2000, states
                                   “employees are responsible for adhering to their assigned
                                   work schedules. A variance from the assigned work
                                   schedule will result in unauthorized overtime. Supervisors
                                   must document these occurrences on PS Form 1017-B and
                                   take corrective action.”

                                   As a result of not documenting unauthorized overtime,
                                   supervisors were not able to effectively consult and correct
                                   carrier performance issues to assist in managing overtime
                                   hours.

 Recommendation                    We recommend the manager, Santa Ana District:

                                      8.   Reinforce the policy in Handbook F-401,
                                           Supervisor’s Guide to Scheduling and Premium
                                           Pay, to properly complete PS Form 1017-B,
                                           Unauthorized Overtime Record, to document
                                           unauthorized overtime and take appropriate
                                           corrective action.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          Management provided training on unauthorized overtime to
                                   supervisors during April and May 2005.




                                                       16
City Letter Carrier Operations –                                               DR-AR-05-013
 Santa Ana District




 Evaluation of                     Management’s comments are responsive to our
 Management’s                      recommendation. Management’s actions taken should
 Comments                          correct the issue identified in the finding.




                                                     17
City Letter Carrier Operations –                                                                                                                                                                DR-AR-05-013
 Santa Ana District


                                   APPENDIX A. SUMMARY OF 119 “3996 AUDITS”




                                                                                                      Total Unjustified Time in Minutes
                                                                  Total Time Used Greater Than




                                                                                                                                                                                                           No PS Form 3996 but Route
                                                                                                                                                                           Total Routes Greater Than




                                                                                                                                                                                                           Greater Than Eight Hours
                                                                                                                                               Total Unjustified Percent
                                                                  Eight Hours in Minutes
                     Delivery Facility




                                                    Day of Week




                                                                                                                                                                           Eight Hours
    Number




                                            Date


        1    xxxxxxxxxxxx                05/04/04   T                                   846                                846                 100%                                            20                                      20
        2    xxxxxxxxxxxx                05/07/04   F                                   460                                428                                93%                              13                                      11
        3    xxxxxxxxxxxx                05/28/04   F                                   128                                128                 100%                                                    5                               5
        4    xxxxxxxxxxxx                05/29/04   S                                            96                                       96   100%                                                    2                               2
        5    xxxxxxxxxxxx                06/02/04   W                                   708                                683                                96%                              16                                      13
        6    xxxxxxxxxxxx                06/12/04   S                        1,052                    1,052                                    100%                                            16                                      15
        7    xxxxxxxxxxxx                06/21/04   M                                   308                                303                                98%                              10                                      8
        8    xxxxxxxxxxxx                07/01/04   Th                                  518                                518                 100%                                            10                                      10
        9    xxxxxxxxxxxx                07/10/04   S                                            34                                       34   100%                                                    1                               1
    10       xxxxxxxxxxxx                07/28/04   W                                   590                                590                 100%                                            13                                      13
    11       xxxxxxxxxxxx                07/29/04   W                                   306                                306                 100%                                                    8                               8
    12       xxxxxxxxxxxx                07/30/04   F                                   636                                636                 100%                                            12                                      12
    13       xxxxxxxxxxxx                08/11/04   W                        1,056                    1,056                                    100%                                            19                                      19
    14       xxxxxxxxxxxx                08/18/04   W                                   761                                761                 100%                                            15                                      15
    15       xxxxxxxxxxxx                09/01/04   W                                   826                                826                 100%                                            15                                      15
    16       xxxxxxxxxxxx                09/14/04   T                        1,310                    1,310                                    100%                                            23                                      22
    17       xxxxxxxxxxxx                09/15/04   W                        1,506                    1,465                                                   97%                              20                                      19
    18       xxxxxxxxxxxx                09/18/04   S                                   602                                602                 100%                                            10                                      9
    19       xxxxxxxxxxxx                09/22/04   W                        1,259                    1,217                                                   97%                              19                                      16
    20       xxxxxxxxxxxx                09/25/04   S                                            79                                       79   100%                                                    5                               5
    21       xxxxxxxxxxxx                05/07/04   F                                   901                                894                                99%                              23                                      17
    22       xxxxxxxxxxxx                05/08/04   S                        1,963                    1,778                                                   91%                              25                                      19
    23       xxxxxxxxxxxx                05/14/04   F                                   567                                536                                95%                              13                                      8
    24       xxxxxxxxxxxx                05/18/04   T                        1,808                    1,716                                                   95%                              28                                      14
    25       xxxxxxxxxxxx                05/20/04   Th                                  946                                565                                60%                              25                                      12
    26       xxxxxxxxxxxx                06/01/04   T                        2,817                    2,149                                                   76%                              35                                      22
    27       xxxxxxxxxxxx                06/10/04   Th                       1,671                    1,617                                                   97%                              28                                      21
    28       xxxxxxxxxxxx                06/16/04   W                        1,899                    1,729                                                   91%                              23                                      12
    29       xxxxxxxxxxxx                06/28/04   M                                   620                                607                                98%                              15                                      14




                                                                  18
City Letter Carrier Operations –                                                                                                                                                      DR-AR-05-013
 Santa Ana District




                                                                                                 Total Unjustified Time in Minutes
                                                                  Total Time Used Greater Than




                                                                                                                                                                                                 No PS Form 3996 but Route
                                                                                                                                                                 Total Routes Greater Than




                                                                                                                                                                                                 Greater Than Eight Hours
                                                                                                                                     Total Unjustified Percent
                                                                  Eight Hours in Minutes
                     Delivery Facility




                                                    Day of Week




                                                                                                                                                                 Eight Hours
    Number




                                            Date
    30       xxxxxxxxxxxx                07/01/04   Th                                  687                           685            100%                                            15                                      13
    31       xxxxxxxxxxxx                07/07/04   W                        1,710               1,632                                              95%                              27                                      20
    32       xxxxxxxxxxxx                07/15/04   Th                       1,030                                    933                           91%                              16                                      8
    33       xxxxxxxxxxxx                07/26/04   M                                   943                           760                           81%                              12                                      8
    34       xxxxxxxxxxxx                08/09/04   M                                   666                           653                           98%                              11                                      10
    35       xxxxxxxxxxxx                08/11/04   W                                   254                           251                           99%                                      7                               5
    36       xxxxxxxxxxxx                08/19/04   Th                                  627                           591                           94%                              16                                      15
    37       xxxxxxxxxxxx                08/23/04   M                                   280                           269                           96%                                      9                               8
    38       xxxxxxxxxxxx                08/28/04   S                                   934                           934            100%                                            15                                      15
    39       xxxxxxxxxxxx                09/22/04   W                        2,374               1,910                                              80%                              36                                      21
    40       xxxxxxxxxxxx                09/27/04   M                                   680                           548                           81%                              12                                      7
    41       xxxxxxxxxxxx                05/07/04   F                                   922                           922            100%                                            15                                      15
    42       xxxxxxxxxxxx                06/07/04   M                                   597                           597            100%                                            12                                      11
    43       xxxxxxxxxxxx                06/12/04   S                        1,291               1,264                                              98%                              18                                      17
    44       xxxxxxxxxxxx                06/18/04   F                                   534                           534            100%                                            11                                      10
    45       xxxxxxxxxxxx                06/01/04   M                                   791                           791            100%                                                    8                               8
    46       xxxxxxxxxxxx                06/26/04   S                                   620                           620            100%                                                    6                               5
    47       xxxxxxxxxxxx                06/28/04   M                                   917                           917            100%                                            18                                      18
    48       xxxxxxxxxxxx                07/02/04   F                                   327                           327            100%                                                    8                               7
    49       xxxxxxxxxxxx                07/15/04   Th                                  384                           384            100%                                                    8                               8
    50       xxxxxxxxxxxx                07/16/04   F                                   408                           408            100%                                            10                                      9
    51       xxxxxxxxxxxx                07/24/04   S                                   587                           587            100%                                            11                                      11
    52       xxxxxxxxxxxx                07/27/04   T                                   493                           493            100%                                            17                                      17
    53       xxxxxxxxxxxx                07/30/04   F                                   431                           431            100%                                            10                                      10
    54       xxxxxxxxxxxx                07/31/04   S                                   400                           400            100%                                                    9                               9
    55       xxxxxxxxxxxx                08/05/04   Th                                  564                           564            100%                                                    7                               7
    56       xxxxxxxxxxxx                08/12/04   Th                                  112                           112            100%                                                    4                               4
    57       xxxxxxxxxxxx                08/17/04   T                                   888                           888            100%                                            17                                      17
    58       xxxxxxxxxxxx                08/18/04   W                                   737                           737            100%                                            16                                      16
    59       xxxxxxxxxxxx                09/08/04   W                        1,444               1,444                               100%                                            21                                      20
    60       xxxxxxxxxxxx                09/23/04   Th                       1,093               1,070                               100%                                            21                                      20




                                                                  19
City Letter Carrier Operations –                                                                                                                                                                DR-AR-05-013
 Santa Ana District




                                                                                                      Total Unjustified Time in Minutes
                                                                  Total Time Used Greater Than




                                                                                                                                                                                                           No PS Form 3996 but Route
                                                                                                                                                                           Total Routes Greater Than




                                                                                                                                                                                                           Greater Than Eight Hours
                                                                                                                                               Total Unjustified Percent
                                                                  Eight Hours in Minutes
                     Delivery Facility




                                                    Day of Week




                                                                                                                                                                           Eight Hours
    Number




                                            Date
    61       xxxxxxxxxxxx                05/05/04   W                        1,950                    1,950                                    100%                                            28                                      21
    62       xxxxxxxxxxxx                05/07/04   F                        1,810                    1,810                                    100%                                            25                                      17
    63       xxxxxxxxxxxx                05/10/04   M                        2,395                    2,395                                    100%                                            29                                      29
    64       xxxxxxxxxxxx                05/20/04   Th                       2,002                    1,997                                    100%                                            25                                      21
    65       xxxxxxxxxxxx                05/25/04   T                        1,498                    1,498                                    100%                                            27                                      22
    66       xxxxxxxxxxxx                06/10/04   Th                       2,902                    2,902                                    100%                                            31                                      24
    67       xxxxxxxxxxxx                06/18/04   Th                       1,599                    1,599                                    100%                                            26                                      21
    68       xxxxxxxxxxxx                06/21/04   M                        1,468                    1,468                                    100%                                            21                                      18
    69       xxxxxxxxxxxx                06/23/04   W                        2,326                    2,326                                    100%                                            30                                      26
    70       xxxxxxxxxxxx                07/08/04   Th                       1,358                    1,358                                    100%                                            24                                      24
    71       xxxxxxxxxxxx                07/10/04   S                        1,753                    1,753                                    100%                                            26                                      25
    72       xxxxxxxxxxxx                07/12/04   M                        2,209                    2,166                                                   98%                              26                                      23
    73       xxxxxxxxxxxx                07/31/04   S                        2,735                    2,735                                    100%                                            26                                      26
    74       xxxxxxxxxxxx                08/03/04   T                        2,260                    2,202                                                   97%                              26                                      21
    75       xxxxxxxxxxxx                08/04/04   W                        2,116                    2,116                                    100%                                            30                                      27
    76       xxxxxxxxxxxx                08/24/04   T                        2,606                    2,606                                    100%                                            28                                      23
    77       xxxxxxxxxxxx                09/02/04   Th                       3,103                    3,103                                    100%                                            32                                      30
    78       xxxxxxxxxxxx                09/13/04   M                        3,427                    3,427                                    100%                                            33                                      28
    79       xxxxxxxxxxxx                09/16/04   Th                       3,010                    3,010                                    100%                                            32                                      27
    80       xxxxxxxxxxxx                09/21/04   T                        2,653                    2,653                                    100%                                            30                                      29
    81       xxxxxxxxxxxx                05/19/04   W                                   872                                855                                98%                              18                                      15
    82       xxxxxxxxxxxx                05/21/04   F                                            28                                       28   100%                                                    1                               1
    83       xxxxxxxxxxxx                06/07/04   M                                   837                                837                 100%                                            13                                      12
    84       xxxxxxxxxxxx                06/08/04   T                                   755                                755                 100%                                            16                                      13
    85       xxxxxxxxxxxx                07/10/04   T                                   372                                372                 100%                                                    8                               7
    86       xxxxxxxxxxxx                07/12/04   M                                   666                                666                 100%                                            12                                      12
    87       xxxxxxxxxxxx                07/15/04   Th                                  743                                688                                93%                              11                                      9
    88       xxxxxxxxxxxx                07/24/04   S                                   638                                634                                99%                                      8                               7
    89       xxxxxxxxxxxx                07/26/04   M                                   629                                629                 100%                                            14                                      13
    90       xxxxxxxxxxxx                07/28/04   W                                   898                                879                                98%                              15                                      12
    91       xxxxxxxxxxxx                08/02/04   M                        1,378                    1,378                                    100%                                            12                                      12




                                                                  20
City Letter Carrier Operations –                                                                                                                                                                  DR-AR-05-013
 Santa Ana District




                                                                                                             Total Unjustified Time in Minutes
                                                                            Total Time Used Greater Than




                                                                                                                                                                                                             No PS Form 3996 but Route
                                                                                                                                                                             Total Routes Greater Than




                                                                                                                                                                                                             Greater Than Eight Hours
                                                                                                                                                 Total Unjustified Percent
                                                                            Eight Hours in Minutes
                     Delivery Facility




                                                             Day of Week




                                                                                                                                                                             Eight Hours
    Number




                                                     Date
    92       xxxxxxxxxxxx                         08/06/04   F                         1,544                 1,544                               100%                                                    8                               6
    93       xxxxxxxxxxxx                         08/11/04   W                                    833                             714                           86%                              16                                      12
    94       xxxxxxxxxxxx                         08/12/04   Th                                   466                             466            100%                                            10                                      6
    95       xxxxxxxxxxxx                         08/26/04   Th                                   955                             955            100%                                            17                                      15
    96       xxxxxxxxxxxx                         08/27/04   F                                    899                             899            100%                                            12                                      12
    97       xxxxxxxxxxxx                         09/13/04   M                         1,184                 1,055                                              89%                              15                                      8
    98       xxxxxxxxxxxx                         09/18/04   S                         1,107                 1,076                                              97%                              11                                      8
    99       xxxxxxxxxxxx                         09/20/04   M                         2,380                 2,153                                              90%                              17                                      9
   100       xxxxxxxxxxxx                         09/27/04   M                         1,615                 1,391                                              86%                              21                                      15
   101       xxxxxxxxxxxx                         05/01/04   S                         1,178                 1,172                                              99%                              14                                      7
   102       xxxxxxxxxxxx                         05/06/04   Th                                   933                             898                           96%                              14                                      9
   103       xxxxxxxxxxxx                         05/14/04   F                                    979                             979            100%                                            14                                      5
   104       xxxxxxxxxxxx                         05/29/04   S                                    397                             396            100%                                                    8                               6
   105       xxxxxxxxxxxx                         06/07/04   S                                    822                             681                           83%                              16                                      4
   106       xxxxxxxxxxxx                         06/12/04   S                         1,513                 1,217                                              80%                              24                                      12
   107       xxxxxxxxxxxx                         06/15/04   T                                    575                             523                           91%                              18                                      12
   108       xxxxxxxxxxxx                         06/18/04   F                                    675                             639                           95%                              22                                      13
   109       xxxxxxxxxxxx                         06/30/04   W                                    663                             650                           98%                              18                                      12
   110       xxxxxxxxxxxx                         07/02/04   F                         1,139                 1,115                                              98%                              27                                      16
   111       xxxxxxxxxxxx                         07/06/04   T                         2,493                 2,338                                              93%                              31                                      19
   112       xxxxxxxxxxxx                         07/16/04   F                         1,408                 1,404                                              99%                              19                                      9
   113       xxxxxxxxxxxx                         07/21/04   W                                    889                             853                           96%                              20                                      5
   114       xxxxxxxxxxxx                         08/05/04   Th                                   520                             502                           97%                              12                                      6
   115       xxxxxxxxxxxx                         08/07/04   S                                    822                             815                           99%                              16                                      10
   116       xxxxxxxxxxxx                         08/18/04   W                         1,278                 1,230                                              96%                              20                                      10
   117       xxxxxxxxxxxx                         08/23/04   M                                    908                             890                           98%                              19                                      6
   118       xxxxxxxxxxxx                         08/27/22   F                                    434                             426                           98%                              12                                      4
   119       xxxxxxxxxxxx                         09/01/04   W                                    648                             628                           97%                              15                                      9
                                         TOTALS                            132,251                         127,587                                                               2,039                                        1,606




                                                                            21
City Letter Carrier Operations –                                                             DR-AR-05-013
 Santa Ana District


                                                   APPENDIX B

    PROJECTION OF “3996 AUDIT” RESULTS OVER FIVE-MONTH PERIOD


                                                                                                Projected
                                                                                                Hours Not
                                                   95 Percent     95 Percent                   Justified by
                                   Projection of   Confidence     Confidence                   Workload in
                                    Unjustified      Interval       Interval                   Five-Month
                                    Time (Point       Lower          Upper                     Period (May
                                     Estimate)      Bound in       Bound in       Relative       Through
         Delivery Facility          in Minutes      Minutes        Minutes       Precision     Sept. 2004)

      xxxxxxxxxxxx                       131,807       101,081        162,533        27.1%           2,196.78


      xxxxxxxxxxxx                       286,220       255,915        316,524        12.3%           4,770.33


      xxxxxxxxxxxx                        82,144        60,446        103,841        30.7%           1,369.06


      xxxxxxxxxxxx                       114,135        90,560        137,710        24.0%           1,902.25


      xxxxxxxxxxxx                        85,662        68,725        102,598        23.0%           1,427.69


      xxxxxxxxxxxx                       116,011        92,150        139,873        23.2%           1,933.52


      Total of six Facilities                                                                       13,599.63

                                                                                                      Overall
      Santa Ana:                       5,031,864      2,322,248      7,741,481                         83,864
      37 Facilities




                                                          22
City Letter Carrier Operations –                                                 DR-AR-05-013
 Santa Ana District


                        APPENDIX C. TECHNICAL DOCUMENTATION

Sampling

An objective of the audit was to quantify the amount of unjustified time in the Santa Ana District
in the Pacific Area. In support of this objective, the audit team employed a two-stage sample of
carrier time, selecting delivery units and delivery days randomly. The sample design allows
statistical projection of the minutes of unjustified time total, unjustified office time, unjustified
street time, and unexplained unjustified time.

Audit Universe

The team judgmentally selected the Santa Ana District, which had 37 delivery units with 30 to
50 carrier routes. The audit universe consisted of 127 working days from May 1 through
September 30, 2004. In the Pacific Area, Postal Service facilities were closed the day of
Ronald Reagan’s funeral.

Sample Design and Modifications

We chose a two-stage sample design, with simple random selection of delivery units at the
first stage and a simple random sample of delivery days at the second stage. We examined all
delivery routes on the days selected. We had no information regarding the variability we might
see between delivery units. To size the sample, we considered each delivery unit and delivery
day combination as a universe element (a total of 4,699 unit days). We selected a desired
confidence level of 95 percent and, for sample size calculation purposes, a desired relative
precision for a variable estimate of 20 percent. We considered coefficient of variation (CV)
values of 100 percent and 125 percent. With application of the finite population correction,
these CVs generated sample sizes of 95 to 145, respectively. We chose to use a total of
120 delivery unit days, randomly selecting six delivery units at the first stage and then randomly
selecting 20 delivery days at each of the units.

Results

The value assigned to each delivery unit day is the total number of unjustified minutes in a
particular category. Using the total time value as the variable, we applied the equations for the
projection of a variable in a two-stage sample using the equations from Chapter 9 of Scheaffer,
Mendenhall, and Ott, Elementary Survey Sampling, c. 1996. The results for total unjustified
time are summarized in Appendix B.




                                                  23
City Letter Carrier Operations –                                                                      DR-AR-05-013
 Santa Ana District



                                                     APPENDIX D

                     OIG CALCULATION OF UNRECOVERABLE COSTS


As shown in the table below, the OIG identified $3,058,53518 in unjustified (unrecoverable)
costs. The OIG calculated the unjustified costs through a random sample analysis of PS
Form 3996. The “3996 audit” process is an assessment of individual route time greater than
eight hours. The audit process cannot differentiate between time that is truly unjustified and
time that is simply not supported by documentation. The Total Variance Factor in the Postal
Service’s WebEIS data system shows the difference between projected workhours for the
workload identified in DOIS and the actual workhours used by the carriers. Pacific Area
Delivery management and the OIG agreed to 50 percent of the WebEIS variance from May 1
through September 30, 2004, as the unrecoverable costs, which amounts to $2,127,852.19




                                             Workhours              Labor Rate                     Cost
          Unjustified workhours                83,864.41                 $36.47                     $3,058,535
          projected by the OIG
          from “3996 audits”
          during May 1 through
          September 30, 2004,
          for 37 delivery
          facilities with 30 to
          50 routes
          Workhours using                       116,690.55                  $36.47                    $4,255,704
          Total Variance
          Factor in WebEIS for
          May 1 through
          September 30, 2004,
          for the 37 delivery
          facilities with 30 to
          50 routes
          Unrecoverable                           58,345.28                 $36.47                    $2,127,852
          workhours identified
          by using 50 percent of
          WebEIS variance
18
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter carriers in
FY 2004 was $36.47. The 83,864.41 hours multiplied by $36.47 equals $3,058,535.
19
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter carriers in
FY 2004 was $36.47. The 58,345.28 hours multiplied by $36.47 equals $2,127,852.




                                                              24
City Letter Carrier Operations –                             DR-AR-05-013
 Santa Ana District


                         APPENDIX E. MANAGEMENT’S COMMENTS




                                        25
City Letter Carrier Operations –        DR-AR-05-013
 Santa Ana District




                                   26
City Letter Carrier Operations –        DR-AR-05-013
 Santa Ana District




                                   27
City Letter Carrier Operations –        DR-AR-05-013
 Santa Ana District




                                   28
